1a
APPENDIX A
United States Court of Appeals
For the First Circuit
October 29, 2020
______________________
No. 19-1818
STATE OF RHODE ISLAND,
Plaintiff, Appellee,
v.
SHELL OIL PRODUCTS CO., L.L.C.; CHEVRON
CORP.; CHEVRON USA, INC.; EXXONMOBIL
CORP.; BP, PLC; BP AMERICA, INC.,; BP
PRODUCTS NORTH AMERICA, INC.; ROYAL
DUTCH SHELL P.L.C.; MOTIVA ENTERPRISES,
L.L.C.; CITGO PETROLEUM CORP.;
CONOCOPHILLIPS; CONOCOPHILLIPS CO.;
PHILLIPS 66; MARATHON OIL CO.; MARATHON
PETROLEUM CORP.; MARATHON PETROLEUM
CO., L.P.; SPEEDWAY, L.L.C.; HESS CORP.;
LUKOIL PAN AMERICAS L.L.C.; AND DOES 1100,
Defendants, Appellants,
GETTY PETROLEUM MARKETING, INC.
Defendant.

2a
______________________
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF RHODE ISLAND
[Hon. William E. Smith, Chief U.S. District Judge]
______________________
Before
Howard, Chief Judge
*
and Thompson, Circuit Judge.
______________________
Theodore J. Boutrous, Jr., with whom Joshua S.
Lipshutz, Anne Champion, Gibson, Dunn & Crutcher
LLP, Gerald J. Petros, Robin L. Main, Ryan M. Gainor, Hinckley, Allen & Snyder LLP, Neal S. Manne,
Susman Godfrey LLP, John A. Tarantino, Patricia K.
Rocha, Nicole J. Benjamin, Adler Pollock & Sheehan
P.C., Philip H. Curtis, Nancy G. Milburn, Matthew T.
Heartney, Arnold & Porter Kaye Scholer LLP, Matthew T. Oliverio, Oliverio & Marcaccio LLP, Theodore
V. Wells, Jr., Daniel J. Toal, Jaren Janghorbani, Kannon Shanmugam, Paul, Weiss, Rifkind, Wharton,
Garrison LLP, Jeffrey S. Brenner, Nixon Peabody
LLP, David C. Frederick, Brendan J. Crimmins,
Grace W. Knofczynski, Kellogg, Hansen, Todd, Figel
& Frederick, P.L.L.C., Daniel B. Levin, Jerome C.
Roth, Elizabeth A. Kim, Munger, Tolles & Olson LLP,
John E. Bulman, Stephen J. MacGillivray, Pierce Atwood LLP, Nathan P. Eimer, Pamela R. Hanebutt,
Lisa S. Meyer, Raphael Janove, Ryan J. Walsh, Eimer
Stahl LLP, Michael J. Colucci, Olenn & Penza, LLP,
*

Judge Torruella heard oral argument in this matter and participated in the semble, but he did not participate in the issuance
of the panel’s opinion in this case. The remaining two panelists
therefore issued the opinion pursuant to 28 U.S.C. § 46(d).

3a
Sean C. Grimsley, Jameson R. Jones, Bartlit Beck
LLP, Robert G. Flanders, Jr., Timothy K. Baldwin,
Whelan, Corrente, Flanders, Kinder & Siket LLP, Steven M. Bauer, Margaret A. Tough, Latham & Watkins
LLP, Jeffrey B. Pine, Patrick C. Lynch, Lynch & Pine,
Shannon S. Broome, Shawn Patrick Regan, Ann Marie Mortimer, Hunton Andrews Kurth LLP, Jason C.
Preciphs, Roberts, Carroll, Feldstein & Peirce, INC.,
J. Scott Janoe, Matthew Allen, Megan Berge, Baker
Botts L.L.P., Lauren Motola-Davis, Samuel A. Kennedy-Smith, Lewis Brisbois Bisgaard & Smith LLP,
Jeffrey S. Brenner, Nixon Peabody LLP, Stephen M.
Prignano, Mcintyre Tate LLP, James Stengel, Robert
Reznick, and Orrick, Herrington & Sutcliffe, LLP,
were on brief for appellants.
Victor M. Sher, with whom Matthew K. Edling,
Sher Edling LLP, and Neil F.X. Kelly, Assistant Attorney General, were on brief for appellee.
Steven P. Lehotsky, U.S. Chamber Litigation
Center, Peter D. Keisler, Tobias S. Loss-Eaton, and
Sidley Austin LLP, on brief for Chamber of Commerce
of The United States of America, amicus curiae.
Patrick Parenteau, Vermont Law School, Harold
Hongju Koh, Conor Dwyer Reynolds, Peter Gruber
Rule of Law Clinic, and Yale Law School, on brief for
Former U.S. Government Officials, amicus curiae.
Gerson H. Smoger, Smoger & Associates, P.C.,
Anthony Tarricone, and Kreindler & Kreindler, LLP,
on brief for Senator Sheldon Whitehouse, Senator
Jack Reed, and Senator Edward Markey, amicus curiae.
Scott L. Nelson, Allison M. Zieve, and Public Citizen Litigation Group, were on brief for Public Citizen,
amicus curiae.

4a
Robert S Peck and Center For Constitutional Litigation, P.C., on brief for The National League of Cities; The U.S. Conference of Mayors; and The International Municipal Lawyers Association, amicus curiae.
Amy Williams-Derry, Daniel P. Mensher, Alison
S. Gaffney, and Keller Rohrback L.L.P., on brief for
Robert Brulle, Center for Climate Integrity, Justin
Farrell, Benjamin Franta, Stephan Lewandowsky,
Naomi Oreskes, Geoffrey Supran, and The Union of
Concerned Scientists, amicus curiae.
William A. Rossbach and Rossbach Law, PC on
brief for Mario J. Molina, Michael Oppenheimer, Robert E. Kopp, Friederike Otto, Susanne C. Moser, Donald J. Wuebbles, Gary B. Griggs, Peter C. Frumhoff
and Kristina Dahl, amicus curiae.
Peter Huffman on brief for Natural Resources Defense Council, amicus curiae.
Xavier Becerra, Attorney General for the State of
California, David A. Zonana, Supervising Deputy Attorney General, Erin Ganahl, Deputy Attorney General, Heather Leslie, Deputy Attorney General,
Maura Healey, Attorney General for the Commonwealth of Massachusetts, Seth Schofield, Senior Appellate Counsel, William Tong, Attorney General of
Connecticut, Kathleen Jennings, Attorney General of
Delaware, Clare E. Connors, Attorney General of Hawaii, Aaron M. Frey, Attorney General of Maine,
Brian E. Frosh, Attorney General of Maryland, Keith
Ellison, Attorney General of Minnesota, Gurbir S.
Grewal, Attorney General of New Jersey, Letitia
James, Attorney General of New York, Ellen F. Rosenblum, Attorney General of Oregon, Thomas J. Donovan, Attorney General of Vermont, and Robert W.
Ferguson, Attorney General of Washington on brief

5a
for Commonwealth of Massachusetts, State of California, State of Connecticut, State of Delaware, State of
Hawaii, State of Maine, State of Maryland, State of
Minnesota, State of New Jersey, State of New York,
State of Oregon, State of Vermont, and State of Washington, amicus curiae.
Matthew D. Hardin on brief for Energy Policy Advocates, amicus curiae.

6a
THOMPSON, Circuit Judge. Rhode Island is
salty about losing its already limited square footage to
rising sea levels caused by climate change. Facing
property damage from extreme weather events and
otherwise losing money to the effects of climate
change, Rhode Island sued a slew of oil and gas companies for the damage caused by fossil fuels while
those companies misled the public about their products’ true risks.
Because those claims were state law claims,
Rhode Island filed suit in state court. The oil companies, seeing many grounds for federal jurisdiction, removed the case to federal district court. Rhode Island
opposed removal and asked that the district court
kindly return the lawsuit to state court. The district
court obliged and allowed Rhode Island’s motion for
remand.
The oil companies appealed the district court’s order to us and a heated debate ensued over the scope of
our review. After careful consideration, we conclude
that 28 U.S.C. § 1447(d) permits our review of remand
orders only to the extent that the defendant’s grounds
for removal are federal-officer jurisdiction, pursuant
to 28 U.S.C. § 1442 or civil rights jurisdiction, pursuant to 28 U.S.C. § 1443. The oil companies make no
argument that this is a civil rights case and we conclude the allegations in Rhode Island’s state court
complaint do not give rise to federal-officer jurisdiction. Having jurisdiction to review no more than that
question, we affirm the district court’s remand order.

7a
BACKGROUND
Rhode Island’s State Court Case
We summarize Rhode Island’s claims, taking all
well-pleaded allegations in its state court complaint
as true for the purposes of our analysis. Ten Taxpayer
Citizens Grp. v. Cape Wind Assocs., LLC, 373 F.3d
183, 186 (1st Cir. 2004).
In 2018, faced with rising sea levels, higher average temperatures and extreme heat days, more frequent and severe floods, tropical storms, hurricanes,
and droughts, Rhode Island sued, in state court,
1
nearly every oil and gas company under the sun. According to Rhode Island, the companies knew that
their fossil fuel products were hazardous to the planet
and concealed those risks, instead opting to market
their products in Rhode Island and promote “antiscience campaigns.” The oil companies actively worked
to muddy the waters of scientific consensus, collecting
decades of detailed research into the global impact of
fossil fuels but hiding the results.
All of this left the state up the creek without a
paddle once the effects of fossil fuels became more
clear, working to combat the effects of a warming
planet and an extreme climate. And those effects are
no joke. Most Rhode Island cities and towns are below
the floodplain and New England as a whole is losing
ground to the ocean at a rate three to four times faster
than the global average (and Rhode Island is hardly
big enough to sacrifice so much of its land). Those rising sea levels have already increased erosion and the
damage of storm surges along Rhode Island’s coast.
1

The defendants are unified in their arguments about the issues before us, so we treat them as one group in our analysis.

8a
On top of the work it has already done to respond to
these environmental crises, Rhode Island anticipates
that the costs will only grow as it responds to more
frequent and extreme flooding and other storm damage.
Rhode Island therefore brought this lawsuit “to
ensure that the parties who have profited from externalizing the responsibility for [climate change] bear
the costs of those impacts on Rhode Island.” Or, as
the district court aptly summarized: “Climate change
is expensive, and the State wants help paying for it.”
Rhode Island v. Chevron Corp., 393 F. Supp. 3d 142,
146 (D.R.I. 2019).
The state court complaint lists state causes of action: public nuisance, various products liability
claims, trespass, impairment of public trust resources,
and violation of the state’s Environmental Rights Act.
The theories of liability vary to fit each cause of action,
but at its core, Rhode Island’s claim is simple: the oil
companies knew what fossil fuels were doing to the
environment and continued to sell them anyway, all
while misleading consumers about the true impact of
the products.
District Court Litigation
The oil companies removed the case to the district
court, arguing that it falls within federal jurisdiction
under a variety of theories. The oil companies contended that removal was proper pursuant to 28 U.S.C.
§ 1441, which permits removal of any cases that could
have been originally brought in federal court. To
support that ground for removal, the oil companies in
turn argued that the district court could have had jurisdiction over the case from the start per 28 U.S.C.

9a
§ 1331 because the complaint presents a federal question. The oil companies also argued that any of a flock
of specific jurisdiction statutes provided the necessary
hook to keep the case in federal court, citing the federal-officer removal statute, the Outer Continental
Shelf Lands Act, federal-enclave jurisdiction, the
bankruptcy-removal statute, and admiralty jurisdiction.
Rhode Island disagreed with all of these arguments and moved for the case to be remanded to state
court.
The district court evaluated each of the oil companies’ claims and saw no federal jurisdiction lurking
within Rhode Island’s state causes of action. Accordingly, the district court ordered the case remanded to
state court.
Questions on Appeal
The oil companies appealed the remand order to
us. As we detail below, Rhode Island argues that our
appellate jurisdiction is limited by 28 U.S.C. § 1447(d)
to considering only whether the district court was
wrong about federal-officer removal and forsaking the
other grounds for removal claimed below. Rhode Island, of course, contends the district court was correct
to reject the federal-officer removal theory. The oil
companies read § 1447(d) to authorize appellate review of the entire remand order and tell us that, were
we to review the entire order, we would find that the
district court improperly remanded the case. Should
we limit our review only to the federal-officer jurisdiction question, the oil companies are confident we will
still find federal jurisdiction.

10a
OUR TAKE
The first question we must resolve is the scope of
our review of this appeal under 28 U.S.C. § 1447(d).
Is our appellate jurisdiction limited to the types of removal listed in § 1447(d) or may we examine every basis for removal alleged by the oil companies and rejected by the district court? We begin with the statute
and then detail our interpretation of it, peppering our
discussion with each side’s contentions along the way.
Concluding that our review is cabined to the question
of whether the district court has jurisdiction over this
case pursuant to federal officer removal, we then analyze whether Rhode Island’s complaint meets that
threshold, and ultimately conclude it does not.
Scope of Appellate Review
Section 1447(d) of Title 28 United States Code,
provides:
An order remanding a case to the State court
from which it was removed is not reviewable
on appeal or otherwise, except that an order
remanding a case to the State court from
which it was removed pursuant to section
1442 or 1443 of this title shall be reviewable
by appeal or otherwise.
Section 1442, in turn, authorizes defendants to remove from state court cases involving “[f]ederal officers or agencies” and § 1443 permits removal of civil
rights cases. The parties dispute whether this provision means we only have appellate jurisdiction over
the portion of the remand order rejecting federal-officer jurisdiction or whether the entire remand order
falls within our purview.

11a
Rhode Island argues that § 1447(d) only permits
us to review the district court’s order so far as it applies to the federal-officer jurisdiction argument.
Though our Circuit has held that § 1447(d) generally
prohibits review of remand orders with only narrow
exceptions, see Ochoa Realty Corp. v. Faria, 815 F.2d
812, 815 (1st Cir. 1987), we have not yet addressed the
precise question presented here. Though this is not a
popularity contest, Rhode Island counts among its
friends nearly all of the circuits that have weighed in
on the topic and have limited appellate review to federal officer or civil rights removal. See Bd. of Cty.
Commissioners of Boulder Cty. v. Suncor Energy
(U.S.A.) Inc., 965 F.3d 792, 802 (10th Cir. 2020);
Mayor & City Council of Baltimore v. BP P.L.C., 952
F.3d 452, 459 (4th Cir. 2020), cert. granted sub nom.
BP P.L.C. v. Mayor & City Council Baltimore, No. 191189 (U.S. Oct. 2, 2020); Cty. of San Matteo v. Chevron Corp., 960 F.3d 586, 595-96 (9th Cir. 2020), Jacks
v. Meridian Resource Co., 701 F.3d 1224, 1229 (8th
Cir. 2012); Patel v. Del Taco, Inc., 446 F.3d 996, 998
(9th Cir. 2006); Alabama v. Conley, 245 F.3d 1292,
1293 n.1 (11th Cir. 2001); Davis v. Glanton, 107 F.3d
1044, 1047 (3d Cir. 1997); State Farm Mut. Auto
Ins.
2
Co. v. Baasch, 644 F.2d 94, 97 (2d Cir. 1981).
The oil companies tell us that a plain text reading
of § 1447(d) easily answers this question. In short, the
word “order” means the district court’s entire remand
order both times that it appears in § 1447(d), so we
have appellate jurisdiction to review the entirety of
the remand order and consider whether any of the
grounds asserted below for jurisdiction are sufficient
2

The Supreme Court recently granted a writ of certiorari to
resolve the circuit split on this question. BP P.L.C. v. Mayor &
City Council Baltimore, No. 19-1189 (U.S. Oct. 2, 2020).

12a
to keep this suit in federal court. They lean on the
Seventh Circuit’s decision in Lu Junhong v. Boeing
Co., which adopted this interpretation. 792 F.3d 805,
811 (7th Cir. 2015).
In Lu Junhong, the Seventh Circuit evaluated the
provision at issue here and concluded that “to say that
a district court’s ‘order’ is reviewable is to allow appellate review of the whole order, not just of particular
issues or reasons.” 792 F.3d at 811. In its analysis,
the Seventh Circuit primarily relied on the Supreme
Court’s decision in Yamaha Motor Corp., U.S.A. v.
Calhoun, 516 U.S. 199 (1996). In Yamaha, the Court
examined the scope of appellate jurisdiction over a
district court order during an interlocutory appeal under 28 U.S.C. § 1292(b). 516 U.S. at 205. For its part,
§ 1292(b) provides:
When a district judge, in making in a civil action an order not otherwise appealable under
this section, shall be of the opinion that such
order involves a controlling question of law as
to which there is substantial ground for difference of opinion and that an immediate appeal
from the order may materially advance the ultimate termination of the litigation, he shall
so state in writing in such order. The Court of
Appeals . . . may thereupon, in its discretion,
permit an appeal to be taken from such order[.]
28 U.S.C. § 1292(b) (emphasis added); see Yamaha
Motor Corp., 516 U.S. at 205 (quoting section and emphasizing same language). The Yamaha Court held
that the language of § 1292(b) permitted an appellate
court to review the entire order, rather than being
bound by the district court’s framing of the “controlling question.” 516 U.S. at 205. The Seventh Circuit

13a
reasoned that Yamaha’s understanding of “order” was
the same interpretation called for in § 1447(d).
Seeing all of this, the oil companies rely on Lu
Junhong and Yamaha for their conclusion that the entirety of the district court’s remand order is fair game.
The Seventh Circuit pronounced its interpretation of
the word “order” in Lu Junhong to be “entirely textual,” 792 F.3d at 812, and so the oil companies would
have us resolve this question with the same allegedly
textual approach.
We agree, of course, that we begin with the language of the statute. In re Fin. Oversight & Mgmt.
Bd. for Puerto Rico, 919 F.3d 121, 128 (1st Cir. 2019),
cert. denied sub nom. Assured Guar. Corp. v. Fin.
Oversight & Mgmt. Bd. for Puerto Rico, 140 S. Ct. 855
(2020). But a plain text interpretation (of the sort the
oil companies promote) is only appropriate where the
statutory language that applies to the word “order” is
unambiguous. See Babb v. Wilkie, 140 S. Ct. 1168,
1177 (2020) (“Where . . . the words of a statute are unambiguous, the judicial inquiry is complete.”) (internal quotation marks and citation omitted) (alteration
adopted). “The plainness or ambiguity of statutory
language is determined by reference to the language
itself, the specific context in which that language is
used, and the broader context of the statute as a
whole.” In re Fin. Oversight & Mgmt. Bd. for Puerto
Rico, 919 F.3d at 128 (quoting Robinson v. Shell Oil
Co., 519 U.S. 337, 341 (1997)).
The first phrase of § 1447(d) (“[a remand] order
. . . is not reviewable on appeal or otherwise”) is clear
that the section is an overall prohibition on appellate
review of remand orders. The second phrase is where
things get cloudy. Section 1447(d) provides for exceptions to that general prohibition on review (“except

14a
that an order remanding a case to the State court from
which it was removed pursuant to section 1442 or
1443 of this title shall be reviewable by appeal or otherwise”), but is latently ambiguous because § 1447(d)
“does not expressly contemplate the situation in
which removal is done pursuant to [federal officer removal] and other grounds.” Suncor Energy (U.S.A.)
Inc., 965 F.3d at 805 (emphasis in original). In that
circumstance (which is the case here), the provision
leaves open whether the entire remand order or only
the part that rejects federal-officer removal is reviewable.
Seeing this ambiguity, we are unmoved by the
Seventh Circuit’s reasoning in Lu Junhong because
the “entirely textual” analysis there was premised on
clarity that § 1447(d) lacks. See 792 F.3d at 812. The
Tenth Circuit examined the same question we are
faced with here and noted that to make its textual
analysis function in Lu Junhong, the Seventh Circuit
had to bend the rules.
The Lu Junhong court impliedly conceded
[that there is ambiguity § 1447(d)] in asserting that “Section 1447(d) itself authorizes review of the remand order, because the case
was removed (in part) pursuant to § 1442.”
792 F.3d at 811 (emphasis added). In other
words, to convey its point that the plain language of § 1447(d) creates plenary review of a
remand order upon invocation of a federal officer removal basis, the Seventh Circuit was
forced to modify that language with a clarifying parenthetical entirely absent from the
statutory text.
Suncor Energy (U.S.A.) Inc., 965 F.3d at 805. We are
similarly unwilling, when faced with an ambiguous

15a
provision, to force an interpretation in the name of
simplicity. Instead, we will conduct a more holistic
analysis.
Beginning with the overall purpose of the statute,
we note that the Supreme Court has weighed in on
§ 1447 when answering a different question, so we are
not starting our work from scratch. See Powerex
Corp. v. Reliant Energy Servs., Inc., 551 U.S. 224
(2007). We know that “[t]he authority of appellate
courts to review district-court orders remanding removed cases to state court is substantially limited by
[§ 1447]” and that if a district court says that it is remanding a case for lack of subject-matter jurisdiction
(as it did here), we should only review whether that
“characterization was colorable.” Powerex Corp., 551
U.S. at 229, 234. Another strike against a broad reading yielding a searching review of the district court’s
remand order.
Turning to the structure of the provision, the point
of § 1447(d), by its text, is to limit appellate review.
The provision begins with a complete ban on our review of the remand order and then pivots to two precise exceptions. See § 1447(d) (“a remand order . . . is
not reviewable”). This general ban is because, despite
our best efforts, appeals can move at a glacial pace and
“[l]engthy appellate disputes . . . would frustrate the
purpose of § 1447(d).” Powerex Corp., 551 U.S. at 234.
The oil companies tell us that it would not take much
longer to review the entire order if we were already
wading into the waters of the federal-officer removal
question, but even if that were true here (and we are
not confident it is) that does not change the section’s
purpose. See Christopher v. Stanley-Bostitch, Inc.,
240 F.3d 95, 99 (1st Cir. 2001) (“[Section 1447(d)’s]
limitation is intended to prevent prolonged litigation

16a
of the remand issue, and to minimize interference in
state court proceedings by the federal courts, for reasons of comity.”) (citation omitted).
Considering all of this, we are persuaded that to
allow review of every alleged ground for removal rejected in the district court’s order would be to allow
§ 1447(d)’s exception clause to swallow the general
rule prohibiting review and, thus, a narrow construction is appropriate. See Suncor Energy (U.S.A.) Inc.,
965 F.3d at 805 (interpreting the same provision and
citing Comm’r of Internal Revenue v. Clark, 489 U.S.
726, 739 (1989) (“In construing provisions . . . in which
a general statement of policy is qualified by an exception, we usually read the exception narrowly in order
to preserve the primary operation of the provision.”)).
One more thing: we assume Congress is “‘aware
of the universality of th[e] practice’ of denying appellate review of remand orders when Congress creates a
new ground for removal.” Things Remembered, Inc.
v. Petrarca, 516 U.S. 124, 128 (1995) (alteration in
original) (citation omitted) (addressing § 1447(d)).
The final feather in the cap of this analysis then is
that Congress amended this section as recently as
2011 and yet again refrained from
clearly permitting
3
plenary review of remand orders. See Removal Clarification Act of 2011, Pub. L. No. 11251, 125 Stat. 545
(2011).

3

Prior to its most recent amendment, § 1447(d) provided:
An order remanding a case to the State court
from which it was removed is not reviewable on
appeal or otherwise, except that an order remanding a case to the State court from which it
was removed pursuant to section 1443 of this title shall be reviewable by appeal or otherwise.

17a
This is where the oil companies’ Yamaha argument resurfaces. Prior to the 2011 amendment to
§ 1447(d), Yamaha interpreted “order” to mean everything decided by the district court. 516 U.S. at 205.
So, the reasoning goes, the relative Congressional inaction on § 1447(d) in 2011 was actually Congress ratifying the Yamaha understanding of the word “order”
rather than the decades-long deluge of appellate court
interpretations of § 1447 generally. See, e.g., Powerex
Corp., 551 U.S. at 229; Christopher, 240 F.3d at 99.
But Yamaha was interpreting the word “order” in a
different provision, § 1292(b), and in a different procedural posture, an interlocutory appeal. No branch of
statutory interpretation says that we should assume
Congress is silently adopting court-determined definitions from other statutes when the law in question has
its own long history of application and we are not going to plant that seed now.
To sum this up: we read § 1447(d) as prohibiting
appellate review of district court orders remanding
cases for lack of subject matter jurisdiction, except for
the components of those orders, should they exist,
where the district court rejects a defendant’s attempt
to remove a case under federal-officer removal or civil
rights removal.
Federal-Officer Removal
With the question of our jurisdiction resolved, we
turn to the merits that are within our purview: did
the district court err when it concluded that it did not
have subject-matter jurisdiction over this case pursu-

28 U.S.C. § 1447 (1996). Congress added the phrase “section
1442 or” to the exception clause and left the provision otherwise
untouched.

18a
ant to 28 U.S.C. § 1442(a)(1), the federal-officer removal statute? We review de novo a “district court’s
decision to remand a case to state court,” Amoche v.
Guarantee Tr. Life Ins. Co., 556 F.3d 41, 48 (1st Cir.
2009), “and, thus, [the district court’s] underlying conclusion[s]” as to subject matter jurisdiction, Rhode Island Fishermen’s All., Inc. v. Rhode Island Dep’t of
Envtl. Mgmt., 585 F.3d 42, 47 (1st Cir. 2009).
Private actors sued in state court can remove the
case to federal court where the private actor is “acting
under [any federal officer], for any act under color of
such office.” 28 U.S.C. § 1442(a)(1); accord Camacho
v. Autoridad de Telefonos de Puerto Rico, 868 F.2d
482, 486-87 (1st Cir. 1989). “Acting under” connotes
“subjection, guidance, or control” and involves “an effort to assist, or to help carry out, the duties or tasks
of the federal superior.” Watson v. Phillip Morris
Companies, Inc., 551 U.S. 142, 152 (2007) (citations
omitted).
To succeed in their argument that federal-officer
removal is proper in this case, the oil companies must
show that they were acting under a federal officer’s
authority, that they will assert a colorable federal defense to the suit, and that there exists “a nexus” between the allegations in the complaint and conduct
undertaken at the behest of a federal officer. Jefferson Cty., Ala. v. Acker, 527 U.S. 423, 431 (1999) (internal quotation marks and citations omitted). If the
oil companies cannot demonstrate all three of these
elements, they cannot remove the case to federal court
under § 1442.
To support their argument, the oil companies
point us to three contracts with the federal government related to the production of oil and argue that
they were “acting under” a federal officer because they

19a
“help[ed] the Government to produce an item that it
needs.” See Watson, 551 U.S. at 153. Specifically,
these contracts involved (1) oil extraction from the Elk
Hills Naval Petroleum Reserve, (2) oil extraction under the Outer Continental Shelf Land Act (“OCSLA”),
and (3) CITGO fuel supply agreements. In the Elk
Hills Reserve Contract, Standard Oil, a predecessor of
Chevron, and the U.S. Navy entered into a contract
whereby Standard would limit its extraction to ensure
adequate reserves for the Navy, but Standard “could
dispose of the oil they extracted as they saw fit.”
County of San Mateo v. Chevron Corp., 960 F.3d 586,
602 (9th Cir. 2020). In the OCSLA leases, some of the
oil companies agreed to mineral leases with the U.S.
Government to extract oil and natural gas from the
Outer Continental Shelf, but there appears to be no
“close supervision” of this extraction or production of
oil “specially conformed to government use.” See Suncor (U.S.A.), Inc., 965 F.3d at 822, 825. And finally,
CITGO entered into a contract to provide oil to the Naval Exchange Service Command (“NEXCOM”) service
stations on naval bases. County of San Mateo, 960
F.3d at 600-01.
At first glance, these agreements may have the
flavor of federal officer involvement in the oil companies’ business, but that mirage only lasts until one remembers what Rhode Island is alleging in its lawsuit.
Rhode Island is alleging the oil companies produced
and sold oil and gas products in Rhode Island that
were damaging the environment and engaged in a
misinformation campaign about the harmful effects of
their products on the earth’s climate. The contracts
the oil companies invoke as the hook for federal-officer
jurisdiction mandate none of those activities. See
Camacho, 868 F.2d at 486 (jurisdiction clearly proper

20a
where defendants were under “express orders, control[,] and directions of federal officers”). The Elk
Hills Reserve contract and OCSLA lease address extraction, not distribution or marketing, and the
NEXCOM contract only implicates any of those activities on Naval bases, which are explicitly not a part of
Rhode Island’s case. There is simply no nexus between anything for which Rhode Island seeks damages and anything the oil companies allegedly did at
the behest of a federal officer. Accordingly, we conclude that the district court properly found that there
is no subject-matter jurisdiction under the federal-officer removal statute.
CONCLUSION
Solely having appellate jurisdiction to review the
district court’s remand order to the extent that it denies federal-officer removal, we affirm.
Costs
awarded to Rhode Island.

21a
APPENDIX B
United States Court of Appeals
For the First Circuit
November 5, 2020
______________________
No. 19-1818
STATE OF RHODE ISLAND,
Plaintiff, Appellee,
v.
SHELL OIL PRODUCTS CO., L.L.C.; CHEVRON
CORP.; CHEVRON USA, INC.; EXXONMOBIL
CORP.; BP, PLC; BP AMERICA, INC.,; BP
PRODUCTS NORTH AMERICA, INC.; ROYAL
DUTCH SHELL P.L.C.; MOTIVA ENTERPRISES,
L.L.C.; CITGO PETROLEUM CORP.;
CONOCOPHILLIPS; CONOCOPHILLIPS CO.;
PHILLIPS 66; MARATHON OIL CO.; MARATHON
PETROLEUM CORP.; MARATHON PETROLEUM
CO., L.P.; SPEEDWAY, L.L.C.; HESS CORP.;
LUKOIL PAN AMERICAS L.L.C.; AND DOES 1100,
Defendants, Appellants,
GETTY PETROLEUM MARKETING, INC.
Defendant.
______________________

22a
ERRATA SHEET
The opinion of this Court issued on October 29,
2020, is amended as follows:
On page 4, line 2, replace “there is ambiguity
§ 1447(d)” with “there is ambiguity in § 1447(d).”

23a
APPENDIX C
United States Court of Appeals
For the First Circuit
October 29, 2020
______________________
No. 19-1818
STATE OF RHODE ISLAND,
Plaintiff, Appellee,
v.
SHELL OIL PRODUCTS CO., L.L.C.; CHEVRON
CORP.; CHEVRON USA, INC.; EXXONMOBIL
CORP.; BP, PLC; BP AMERICA, INC.,; BP
PRODUCTS NORTH AMERICA, INC.; ROYAL
DUTCH SHELL P.L.C.; MOTIVA ENTERPRISES,
L.L.C.; CITGO PETROLEUM CORP.;
CONOCOPHILLIPS; CONOCOPHILLIPS CO.;
PHILLIPS 66; MARATHON OIL CO.; MARATHON
PETROLEUM CORP.; MARATHON PETROLEUM
CO., L.P.; SPEEDWAY, L.L.C.; HESS CORP.;
LUKOIL PAN AMERICAS L.L.C.; AND DOES 1100,
Defendants, Appellants,
GETTY PETROLEUM MARKETING, INC.
Defendant.
______________________

24a
JUDGMENT
This cause came on to be heard on appeal from the
United States District Court for the District of Rhode
Island and was argued by counsel.
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows: The district
court’s remand order, to the extent that it denies federal-officer removal, is affirmed. Costs are awarded
to Rhode Island.
By the Court:
Maria R. Hamilton,
Clerk
cc: Neil F. X. Kelly, Corrie J. Yackulic, Matthew Kendall Edling, Victor Marc Sher, Jeffrey S. Brenner, David Charles Frederick, Brendan J. Crimmins, Grace
W. Knofczynski, Neal S. Manne, Gerald J. Petros,
Robin-Lee Main, Joshua S. Lipshutz, Theodore J.
Boutrous Jr., Matthew Thomas Oliverio, Kannon K.
Shanmugam, William Thomas Marks, Daniel J. Toal,
Theodore V. Wells Jr., Jaren Janghorbani, John A.
Tarantino, Patricia K. Rocha, Nicole J. Benjamin,
Nancy Gordon Milburn, Philip H. Curtis, Matthew T.
Heartney, John E. Bulman, Stephen John MacGillivray, Lisa S. Meyer, Nathan P. Eimer, Pamela R.
Hanebutt, Raphael Janove, Ryan Walsh, Michael J.
Colucci, Robert G. Flanders Jr., Timothy K. Baldwin,
Jameson R. Jones, Margaret Tough, Sean C.
Grimsley, Steven Mark Bauer, Robert P. Reznick, Stephen M. Prignano, James L. Stengel, Patrick C.
Lynch, Jeffrey B. Pine, Shawn Patrick Regan, Shannon S. Broome, Ann Marie Mortimer, Jonathan A.
Shapiro, Jason Christopher Preciphs, Jacob Scott
Janoe, Evan Young, Matthew B. Allen, Megan Berge,
Steven Paul Lehotsky, Peter D. Keisler, Tobias Loss-

25a
Eaton, Patrick Parenteau, Robert S. Peck, Seth
Schofield, William M. Tong, Amy Christine WilliamsDerry, Anthony Tarricone, Gerson H. Smoger, Peter
Huffman, William A. Rossbach, Scott Lawrence Nelson, Matthew Hardin

26a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF RHODE ISLAND
July 22, 2019
STATE OF RHODE
ISLAND,
Plaintiff,
v.
CHEVRON CORP.
et al.,
Defendants.

)
)
)
) C.A. No. 18-395 WES
)
)
)
)
)
)

OPINION AND ORDER
WILLIAM E. SMITH, Chief Judge.
The State of Rhode Island brings this suit against
energy companies it says are partly responsible for
our once and future climate crisis. It does so under
state law and, at least initially, in state court. Defendants removed the case here; the State asks that it go
back. Because there is no federal jurisdiction under
the various statutes and doctrines adverted to by Defendants, the Court GRANTS the State’s Motion to
Remand, ECF No. 40.

27a
I.

Background

1

Climate change is expensive, and the State wants
help paying for it. Compl. ¶¶ 8, 12. Specifically from
Defendants in this case, who together have extracted,
advertised, and sold a substantial percentage of the
fossil fuels burned globally since the 1960s. Id. ¶¶ 7,
12, 19, 97. This activity has released an immense
amount of greenhouse gas into the Earth’s atmosphere, id., changing its climate and leading to all
kinds of displacement, death (extinctions, even), and
destruction, id. ¶¶ 53, 89–90, 199–213, 216. What is
more, Defendants understood the consequences of
their activity decades ago, when transitioning from
fossil fuels to renewable sources of energy would have
saved a world of trouble. Id. ¶¶ 106–46; 184–96. But
instead of sounding the alarm, Defendants went out
of their way to becloud the emerging scientific consensus and further delay changes – however existentially
necessary – that would in any way interfere with their
multibillion-dollar profits. Id. ¶¶ 147–77. All while
quietly readying their capital for the coming fallout.
Id. ¶¶ 178–83.
Pleading eight state-law causes of action, the
State prays in law and equity to relieve the damage
Defendants have and will inflict upon all the non-federal property and natural resources in Rhode Island.
Id. ¶¶ 225–315. Casualties are expected to include
the State’s manmade infrastructure, its roads,
bridges, railroads, dams, homes, businesses, and electric grid; the location and integrity of the State’s expansive coastline, along with the wildlife who call it

1

As given in the State’s complaint. See Ten Taxpayer Citizens
Grp. v. Cape Wind Assocs., 373 F.3d 183, 186 (1st Cir. 2004).

28a
home; the mild summers and the winters that are already barely tolerable; the State fisc, as vast sums are
expended to fortify before and rebuild after the increasing and increasingly severe weather events; and
Rhode Islanders themselves, who will be injured or
worse by these events. Id. ¶¶ 8, 12, 15–18, 88–93,
197–218. The State says it will have more to bear
than most: Sea levels in New England are increasing
three to four times faster than the global average, and
many of the State’s municipalities lie below the floodplain. Id. ¶¶ 59–61, 76.
This is, needless to say, an important suit for both
sides. The question presently before the Court is
where in our federal system it will be decided.
II. Discussion
Invented to protect nonresidents from state-court
tribalism, 14C Charles Alan Wright & Arthur R. Miller, Federal Practice and Procedure § 3721 (rev. 4th
ed. 2018), the right to remove is found in various statutes, which courts have taken to construing narrowly
and against removal. Shamrock Oil & Gas Corp. v.
Sheets, 313 U.S. 100, 108–09 (1941); Esposito v. Home
Depot U.S.A., Inc., 590 F.3d 72, 76 (1st Cir. 2009);
Rosselló-González v. Calderón-Serra, 398 F.3d 1, 11
(1st. Cir. 2004). Defendants cite several of these in
their notice as bases for federal-court jurisdiction. Notice of Removal, ECF No. 1. None, however, allows
Defendants to carry their burden of showing the case
belongs here. See Wilson v. Republic Iron & Steel Co.,
257 U.S. 92, 97 (1921) (“[D]efendant must take and
carry the burden of proof, he being the actor in the removal proceeding.”).

29a
A. General Removal
The first Defendants invoke is the general removal statute. 28 U.S.C. § 1441. Section 1441 allows
a defendant to remove “any civil action brought in a
State court of which the district courts of the United
States have original jurisdiction.” The species of original jurisdiction Defendants claim exists in this case
is federal-question jurisdiction. 28 U.S.C. § 1331.
They argue, in other words, that Plaintiff’s case arises
under federal law. Whether a case arises under federal law is governed by the well-pleaded complaint
rule. Vaden v. Discover Bank, 556 U.S. 49, 60 (2009).
The rule states that removal based on federal-question jurisdiction is only proper where a federal question appears on the face of a well-pleaded complaint.
Caterpillar Inc. v. Williams, 482 U.S. 386, 392 (1987).
This rule operationalizes the maxim that a plaintiff is
the master of her complaint: She may assert certain
causes of action and omit others (even ones obviously
available), and thereby appeal to the jurisdiction of
her choice. Merrell Dow Pharm. Inc. v. Thompson,
478 U.S. 804, 809 n.6 (1986); Caterpillar Inc., 482 U.S.
at 392 (“[Plaintiff] may avoid federal jurisdiction by
exclusive reliance on state law.”).
The State’s complaint, on its face, contains no federal question, relying as it does on only state-law
causes of action. See Compl. ¶¶ 225–315. Defendants
nevertheless insist that the complaint is not wellpleaded, and that if it were, it would, in fact, evince a
federal question on which to hang federal jurisdiction.
Here they invoke the artful-pleading doctrine. “[A]n
independent corollary of the well-pleaded complaint
rule that a plaintiff may not defeat removal by omitting to plead necessary federal questions in a com-

30a
plaint,” Franchise Tax Bd. v. Constr. Laborers Vacation Tr. for S. Cal., 463 U.S. 1, 22 (1983), the artfulpleading doctrine is “designed to prevent a plaintiff
from unfairly placing a thumb on the jurisdictional
scales,” López-Muñoz v. Triple-S Salud, Inc., 754 F.3d
1, 5 (1st Cir. 2014). See Wright & Miller, supra,
§ 3722.1. According to Defendants, the State uses two
strains of artifice in an attempt to keep its case in
state court: one based on complete preemption, the
other on a substantial federal question. See Wright &
Miller, supra, § 3722.1 (discussing the three types of
case in which the artful pleading doctrine has applied).
1. Complete Preemption
Taking these in turn, Defendants first argue – and
two district courts have recently held – that a state’s
public-nuisance claim premised on the effects of climate change is “necessarily governed by federal common law.” California v. BP P.L.C., Nos. C 17-06011
WHA, C 17-06012 WHA, 2018 WL 1064293, at *2
(N.D. Cal. Feb. 27, 2018); accord City of New York v.
BP P.L.C., 325 F. Supp. 3d 466, 471–72 (S.D.N.Y.
2018). Defendants, in essence, want the Court to peek
beneath the purported state-law façade of the State’s
public-nuisance claim, see the claim for what it would
need to be to have a chance at viability, and convert it
to that (i.e., into a claim based on federal common law)
for purposes of the present jurisdictional analysis.
The problem for Defendants is that there is nothing in
the artful-pleading doctrine that sanctions this particular transformation.
The closest the doctrine gets to doing so is called
complete preemption. Compare Defs.’ Opp’n to Pl.’s
Mot. to Remand 9, ECF No. 87 (“[T]he Complaint

31a
pleads claims that arise, if at all, under federal common law . . . .”) and id. at 19 (“[Plaintiff’s claims] are
necessarily governed by federal common law.”), with
Franchise Tax Bd., 463 U.S. at 24 (“[I]f a federal cause
of action completely preempts a state cause of action
any complaint that comes within the scope of the federal cause of action necessarily ‘arises under’ federal
law.”); see also Mayor of Balt. v. BP P.L.C., Civil Action No. ELH-18-2357, 2019 WL 2436848, at *6–7 (D.
Md. June 20, 2019). Complete preemption is different
from ordinary preemption, which is a defense and
therefore does not provide a basis for removal, “even
if the defense is anticipated in the plaintiff’s complaint, and even if both parties admit that the defense
is the only question truly at issue in the case.” Fran2
chise Tax Bd., 463 U.S. at 14, 24. It is a difference of
kind, moreover, not degree: complete preemption is
jurisdictional. López-Muñoz, 754 F.3d at 5; Lehmann
v. Brown, 230 F.3d 916, 919–920 (7th Cir. 2000);
Wright & Miller, supra, § 3722.2. When a state-law
cause of action is completely preempted, it “transmogrifies” into, Lawless v. Steward Health Care Sys.,
2

Defendants cite Boyle v. United Technologies Corp. early in
their brief, and highlighted it at oral argument, as recommending that this Court consider the State’s suit as one implicating
“uniquely federal interests” and consequently governed by federal common law. 487 U.S. 500, 504 (1988). Boyle was not a
removal case, but rather one brought in diversity, where the
Court held that federal common law regarding the performance
of federal procurement contracts preempts, in the ordinary
sense, state tort law. Id. at 502, 507–08, 512. Boyle therefore
does not help Defendants. And although of no legal moment, it
is nonetheless a matter of historical interest that out of all his
opinions, Boyle was the one Justice Scalia would have most liked
to have had back. Gil Seinfeld, The Good, the Bad, and the Ugly:
Reflections of a Counterclerk, 114 Mich. L. Rev. First Impressions 111, 115 & n. 9 (2016).

32a
LLC, 894 F.3d 9, 17–18 (1st Cir. 2018), or less dramatically, “is considered, from its inception, a federal
claim, and therefore arises under federal law,” Caterpillar Inc., 482 U.S. at 393. The claim is then removable pursuant to Section 1441. Beneficial Nat’l Bank
v. Anderson, 539 U.S. 1, 8 (2003).
Congress, not the federal courts, initiates this “extreme and unusual” mechanism. Fayard v. Ne. Vehicle Servs., LLC, 533 F.3d 42, 47–49 (1st Cir. 2008);
see, e.g., Beneficial Nat’l Bank, 539 U.S. at 8
(“[W]here this Court has found complete pre-emption
. . . the federal statutes at issue provided the exclusive
cause of action for the claim asserted and also set forth
procedures and remedies governing that cause of action.” (emphasis added)); Caterpillar Inc., 482 U.S. at
393 (“On occasion, the Court has concluded that the
pre-emptive force of a statute is so extraordinary that
it converts an ordinary state common-law complaint
into one stating a federal claim for purposes of the
well-pleaded complaint rule.” (quotation marks omitted) (emphasis added)); Metro. Life Ins. Co. v. Taylor,
481 U.S. 58, 63–64 (1987) (“Congress may so completely pre-empt a particular area that any civil complaint raising this select group of claims is necessarily
federal in character.” (emphasis added)); LópezMuñoz, 754 F.3d at 5 (“The linchpin of the complete
preemption analysis is whether Congress intended
that federal law provide the exclusive cause of action
for the claims asserted by the plaintiff.” (emphasis
added)); Fayard, 533 F.3d at 45 (“Complete preemption is a shorthand for the doctrine that in certain
matters Congress so strongly intended an exclusive
federal cause of action that what a plaintiff calls a
state law claim is to be recharacterized as a federal
claim.” (first emphasis added)); Marcus v. AT&T
Corp., 138 F.3d 46, 55 (2d Cir. 1998) (“[T]here is no

33a
complete preemption without a clear statement to
that effect from Congress.” (emphasis added)); Wright
& Miller, supra, § 3722.2 (“In concluding that a claim
is completely preempted, a federal court finds that
Congress desired not just to provide a federal defense
to a state-law claim but also to replace the state-law
claim with a federal law claim . . . .” (emphasis
added)). Without a federal statute wielding – or authorizing the federal courts to wield – “extraordinary
preemptive power,” there can be no complete preemption. Metro. Life Ins. Co., 481 U.S. at 65.
Defendants are right that transborder air and water disputes are one of the limited areas where federal
common law survived Erie R. Co. v. Tompkins, 304
U.S. 64, 78 (1938). See, e.g., Am. Elec. Power Co. v.
Connecticut, 564 U.S. 410, 420–21 (2011); Illinois v.
City of Milwaukee, 406 U.S. 91, 103 (1972) (“When we
deal with air and water in their ambient or interstate
aspects, there is a federal common law.”). At least
some of it, though, has been displaced by the Clean
Air Act (“CAA”). See Am. Elec. Power Co., 564 U.S.
at 424 (holding that “the Clean Air Act and the EPA
actions it authorizes displace any federal common law
right to seek abatement of carbon-dioxide emissions
from fossil-fuel fired power plants”); Native Village of
Kivalina v. ExxonMobil Corp., 696 F.3d 849, 856–58
(9th Cir. 2012). But whether displaced or not, environmental federal common law does not – absent congressional say-so – completely preempt the State’s
public-nuisance claim, and therefore provides no basis
for removal. Cf. Marcus, 138 F.3d at 54 (“After Metropolitan Life, it would be disingenuous to maintain
that, while the [Federal Communications Act of 1934]
does not preempt state law claims directly, it manages
to do so indirectly under the guise of federal common
law.”).

34a
With respect to the CAA, Defendants argue it too
completely preempts the State’s claims. The statutes
that have been found to completely preempt state-law
causes of action – the Employee Retirement Income
Security Act, for example, see Metro. Life Ins. Co., 481
U.S. at 67 – all do two things: They “provide[] the exclusive cause of action for the claim asserted and also
set forth procedures and remedies governing that
cause of action.” Beneficial Nat’l Bank, 539 U.S. at 8;
Fayard, 533 F.3d at 47 (“For complete preemption, the
critical question is whether federal law provides an
exclusive substitute federal cause of action that a federal court (or possibly a federal agency) can employ for
the kind of claim or wrong at issue.”). Defendants fail
to point to where in the CAA this happens. As far as
the Court can tell, the CAA authorizes nothing like
the State’s claims, much less to the exclusion of those
sounding in state law. In fact, the CAA itself says that
controlling air pollution “is the primary responsibility
of States and local governments.”
42 U.S.C.
§ 7401(a)(3); see Am. Elec. Power Co., 564 U.S. at 428
(“The Act envisions extensive cooperation between
federal and state authorities . . . .”); EPA v. EME
Homer City Generation, L.P., 572 U.S. 489, 537 (2014)
(Scalia, J., dissenting) (“Down to its very core, the
Clean Air Act sets forth a federalism-focused regulatory strategy.”).
Furthermore, in its section providing for citizen
suits, the CAA saves “any right which any person (or
class of persons) may have under any statute or common law to seek enforcement of any emission standard or limitation or to seek any other relief.” 42 U.S.C.
§ 7604(e). One circuit court has taken this language
as an indication that “Congress did not wish to abolish
state control” over remediating air pollution. Her
Majesty the Queen in Right v. City of Detroit, 874 F.2d

35a
332, 343 (6th Cir. 1989); see also Am. Fuel & Petrochemical Mfrs. v. O’Keefe, 903 F.3d 903 (9th Cir. 2018)
(“Air pollution prevention falls under the broad police
powers of the states, which include the power to protect the health of citizens in the state.” (quotation
marks omitted)). Elsewhere, the Act protects “the
right of any State or political subdivision thereof to
adopt or enforce (1) any standard or limitation respecting emissions of air pollutants or (2) any requirement respecting control or abatement of air pollution
. . . .” 42 U.S.C. § 7416. A statute that goes so far out
of its way to preserve state prerogatives cannot be
said to be an expression of Congress’s “extraordinary
pre-emptive power” to convert state-law into federallaw claims. Metro. Life Ins. Co., 481 U.S. at 65. No
3
court has so held, and neither will this one.
2. Grable Jurisdiction
There is, as mentioned above, a second brand of
artful pleading of which Defendants accuse the State.
They aver the State has hid within their state-law
claims a “federal issue, actually disputed and substantial, which a federal forum may entertain without disturbing any congressionally approved balance of federal and state judicial responsibilities.” Grable &
Sons Metal Prods., Inc. v. Darue Eng’g & Mfg., 545
U.S. 308, 314 (2005). If complete preemption is a
state-law cloche covering a federal-law dish, Grable
jurisdiction is a state-law recipe requiring a federallaw ingredient. Although the latter, like the former,
3

Defendants toss in an argument that the foreign-affairs doctrine completely preempts the State’s claims. The Court finds
this argument without a plausible legal basis. See Mayor of
Balt., 2019 WL 2436848, at *12 (“[T]he foreign affairs doctrine is
inapposite in the complete preemption context.” (quotation
marks omitted)).

36a
is rare. See Empire Healthchoice Assurance, Inc. v.
McVeigh, 547 U.S. 677, 699 (2006) (describing Grable
jurisdiction as lying in a “special and small category”
of cases). And it too does not exist here, because Defendants have not located “a right or immunity created by the Constitution or laws of the United States”
that is “an element and an essential one, of the
[State]’s cause[s] of action.” Gully v. First Nat. Bank
in Meridian, 299 U.S. 109, 112 (1936).
The State’s are thoroughly state-law claims.
Compl ¶¶ 225–315. The rights, duties, and rules of
decision implicated by the complaint are all supplied
by state law, without reference to anything federal.
See id. Defendants’ best cases are all distinguishable
on this point. See Gunn v. Minton, 568 U.S. 251, 259
(2013) (finding Grable jurisdiction lies where “[t]o prevail on his legal malpractice claim . . . [plaintiff] must
show that he would have prevailed in his federal patent infringement case . . . [which] will necessarily require application of patent law to the facts of [his]
case”); Grable, 545 U.S. at 314–15 (same where plaintiff “premised its superior title claim on a failure by
the IRS to give it adequate notice, as defined by federal law”); Bd. of Comm’rs v. Tenn. Gas Pipeline Co.,
850 F.3d 714, 722 (5th Cir. 2017) (same where “[plaintiff’s] complaint draws on federal law as the exclusive
basis for holding [d]efendants liable for some of their
actions”); One & Ken Valley Hous. Grp. v. Me. State
Hous. Auth., 716 F.3d 218, 225 (1st Cir. 2013) (same
where “the “dispute . . . turn[s] on the interpretation
of a contract provision approved by a federal agency
pursuant to a federal statutory scheme” (quotation
marks omitted)); R.I. Fishermen’s All., Inc. v. R.I.
Dep’t of Envtl. Mgmt., 585 F.3d 42, 50 (1st Cir. 2009)
(same where the federal question “is inherent in the

37a
state-law question itself because the state statute expressly references federal law”).
By mentioning foreign affairs, federal regulations,
and the navigable waters of the United States, Defendants seek to raise issues that they may press in
the course of this litigation, but that are not perforce
presented by the State’s claims. Accord Cty. of San
Mateo v. Chevron Corp., 294 F. Supp. 3d 934, 938
(N.D. Cal. 2018) (declining to exercise Grable jurisdiction where “defendants have not pointed to a specific
issue of federal law that must necessarily be resolved
to adjudicate the state law claims” and instead
“mostly gesture to federal law and federal concerns in
a generalized way”); cf. R.I. Fishermen’s All., 585 F.3d
at 49 (upholding exercise of Grable jurisdiction where
it was “not logically possible for the plaintiffs to prevail on [their] cause of action without affirmatively
answering the embedded question of . . . federal law”).
These are, if anything, premature defenses, which
even if ultimately decisive, cannot support removal.
See Merrell Dow, 478 U.S. at 808 (“A defense that
raises a federal question is inadequate to confer federal jurisdiction.”); Franchise Tax Bd., 463 U.S. at 13
(holding that state-law claim did not support federal
jurisdiction where “California law establish[ed] . . .
[the relevant] set of conditions, without reference to
federal law . . . [which would] become[] relevant only
by way of a defense to an obligation created entirely
by state law, and then only if appellant has made out
a valid claim for relief under state law”). Nor, for that
matter, can the novelty of this suite of issues as applied to claims like the State’s. Merrell Dow, 478 U.S.
at 817.

38a
B. Less-General Removal
The Court will be brief in dismissing Defendants’
arguments under bespoke jurisdictional law. The
Outer Continental Shelf Lands Act does not grant federal jurisdiction here, see 43 U.S.C. § 1349(b): Defendants’ operations on the Outer Continental Shelf
may have contributed to the State’s injuries; however,
Defendants have not shown that these injuries would
not have occurred but for those operations. See In re
DEEPWATER HORIZON, 745 F.3d 157, 163–64 (5th
Cir. 2014). There is no federal-enclave jurisdiction:
Although federal land used “for the Erection of Forts,
Magazines, Arsenals, dock-Yards, and other needful
Buildings,” U.S. Const. art. I, § 8, cl. 17, exists in
Rhode Island, and elsewhere may have been the site
of Defendants’ activities, the State’s claims did not
arise there, especially since its complaint avoids seeking relief for damages to any federal lands. See
Washington v. Monsanto Co., 274 F. Supp. 3d 1125,
1132 (W.D. Wash. 2017) (holding that exercise of federal-enclave jurisdiction improper where “Washington avowedly does not seek relief for [toxic-chemical]
contamination of federal territories”).
No causal connection between any actions Defendants took while “acting under” federal officers or agencies and the allegations supporting the State’s claims
means there are not grounds for federal-officer removal, 28 U.S.C. § 1442(a)(1): Defendants cannot
show the alleged promotion and sale of fossil fuels
abetted by a sophisticated misinformation campaign
were “justified by [their] federal duty.” Mesa v. California, 489 U.S. 121, 131–32 (1989). They are also unable to show removal is proper under the bankruptcyremoval statute, 28 U.S.C. § 1452(a), or because of ad-

39a
miralty jurisdiction, 28 U.S.C. § 1333(1). Not the former because this is an action “designed primarily to
protect the public safety and welfare.” McMullen v.
Sevigny (In re McMullen), 386 F.3d 320, 325 (1st Cir.
2004); see 28 U.S.C. § 1452(a) (excepting from bankruptcy removal any “civil action by a governmental
unit to enforce such governmental unit’s police or regulatory power”); In re Methyl Tertiary Butyl Ether
(“MTBE”) Prods. Liab. Litig., 488 F.3d 112, 133 (2d
Cir. 2007) (rejecting bankruptcy removal in cases
whose “clear goal . . . [was] to remedy and prevent environmental damage with potentially serious consequences for public health, a significant area of state
policy”). And not the latter either because state-law
claims cannot be removed based solely on federal admiralty jurisdiction. See, e.g., Coronel v. AK Victory,
1 F. Supp. 3d 1175, 1187–88 (W.D. Wash. 2014); Gonzalez v. Red Hook Container Terminal LLC, 16-CV5104 (NGG) (RER), 2016 WL 7322335, at *3 (E.D.N.Y.
Dec. 15, 2016) (relying on “longstanding precedent
holding that admiralty issues, standing alone, are insufficient to make a case removable”).
III. Conclusion
Federal jurisdiction is finite. See, e.g., U.S. Const.
art. III, § 2, cl. 1. So while this Court thinks itself a
fine place to litigate, the law is clear that the State
can take its business elsewhere if it wants – by pleading around federal jurisdiction – unless Defendants
provide a valid reason to force removal under statutes
“strictly construed.” Syngenta Crop Prot., Inc. v. Henson, 537 U.S. 28, 32 (2002); Great N. Ry. Co. v. Alexander, 246 U.S. 276, 280 (1918) (“[A] suit commenced
in a state court must remain there until cause is
shown for its transfer under some act of Congress.”).
Because Defendants’ attempts in this regard fall

40a
short, the State’s Motion to Remand, ECF No. 40, is
GRANTED. The remand order shall be stayed for
sixty days, however, giving the parties time to brief
and the Court to decide whether a further stay pending appeal is warranted.
IT IS SO ORDERED.
/s/ William E. Smith
William E. Smith
Chief Judge
Date: July 22, 2019

